                                                                           Exhibit A


                                      Grand Valley Health Plan, Inc.
                                      Summary of Questioned Costs



Defective Pricing Questioned Costs:


      Contract Year 2006                                      $554,303
      Contract Year 2007                                      $313,440
      Contract Year 2010                                      $161,193


                Total Defective Pricing Questioned Costs:                $1,028,936


      Lost Investment Income:                                              $200,888


                    Total Questioned Costs:                              $1,229,824
                                                                               Exhibit B
                                                                              Page 1 of 2
                       Grand Valley Health Plan, Inc.
                      Defective Pricing Questioned Costs

2006
                                        Self         Family
FEHBP Line 5 - Reconciled Rate
FEHBP Line 5 - Audited Rate

Overcharge

To Annualize Overcharge:
   3/31/06 enrollment
   Pay Periods                                 26             26
Subtotal

Total 2006 Questioned Costs                                                    $554,303

2007
High Option                             Self         Family
  FEHBP Line 5 - Reconciled Rate
  FEHBP Line 5 - Audited Rate

 Overcharge

 To Annualize Overcharge:
    3/31/07 enrollment
    Pay Periods                                26             26

 Subtotal                                                          $299,598

Standard Option                         Self         Family
  FEHBP Line 5 - Reconciled Rate         $
  FEHBP Line 5 - Audited Rate            $

 Overcharge

 To Annualize Overcharge:
    3/31/07 enrollment
    Pay Periods                                26             26

 Subtotal                                                          $13,842

 Total 2007 Questioned Costs                                                   $313,440
                                                                                       Exhibit B
                                                                                      Page 2 of 2
                         Grand Valley Health Plan, Inc.
                        Defective Pricing Questioned Costs

2010
High Option                                   Self           Family
  FEHBP Line 5 - Reconciled Rate
  FEHBP Line 5 - Audited Rate

 Overcharge

 To Annualize Overcharge:
    3/31/10 enrollment
    Pay Periods                                         26            26


 Subtotal                                                                  $152,307

Standard Option                               Self           Family
  FEHBP Line 5 - Reconciled Rate
  FEHBP Line 5 - Audited Rate

 Overcharge

 To Annualize Overcharge:
    3/31/10 enrollment
    Pay Periods                                         26            26


 Subtotal                                                                   $8,886
 Total 2010 Questioned Costs                                                           $161,193



            Total Defective Pricing Questioned Costs:                                 $1,028,936
                                                                                                                                EXHIBIT C

                                                       Grand Valley Health Plan, Inc.
                                                          Lost Investment Income



  Year                                     2006          2007       2008        2009         2010      2011        31-Jan-12       Total
Audit Findings:

1. Defective Pricing                      $554,303      $313,440           $0          $0   $161,193          $0           $0 $1,028,936


                    Totals (per year):    $554,303      $313,440         $0           $0 $161,193       $0                 $0 $1,028,936
                   Cumulative Totals:     $554,303      $867,743   $867,743     $867,743 ######## ########         $1,028,936 $1,028,936

         Avg. Interest Rate (per year):    5.438%         5.500%    4.938%       5.250%      3.188%    2.563%          2.000%

      Interest on Prior Years Findings:           $0     $30,487    $42,845     $45,557      $27,659   $26,366         $1,715     $174,629

               Current Years Interest:     $15,070        $8,620           $0          $0     $2,569          $0           $0      $26,259

  Total Cumulative Interest Calculated
          Through January 31, 2012:        $15,070       $39,107    $42,845     $45,557      $30,228   $26,366         $1,715     $200,888
